APPENDIX

Case: 18-50365, 08/11/2020, ID: 11784272, DktEntry: 50-1, Page 1 of 3

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
AUG 11 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

U.S. COURT OF APPEALS

No. 18-50365
D.C. No. 3:18-cr-01307-GPC-1

v.
MEMORANDUM*

FRANCISCO VILLA,
Defendant-Appellant.

Appeal from the United States District Court
for the Southern District of California
Gonzalo P. Curiel, District Judge, Presiding
Submitted August 5, 2020**
Before:

SCHROEDER, HAWKINS, and LEE, Circuit Judges.

Francisco Villa appeals from the district court’s judgment and challenges the
90-month sentence and one condition of supervised release imposed following his
guilty-plea conviction for importation of cocaine, heroin, and methamphetamine,
in violation of 21 U.S.C. §§ 952 and 960. We have jurisdiction under 28 U.S.C.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Case: 18-50365, 08/11/2020, ID: 11784272, DktEntry: 50-1, Page 2 of 3

§ 1291, and we affirm.
Villa first contends that his sentence is substantively unreasonable because
the district court did not grant him a downward departure and did not sufficiently
account for his mitigating circumstances. The district court did not abuse its
discretion. See Gall v. United States, 552 U.S. 38, 51 (2007). The belowGuidelines sentence is substantively reasonable in light of the 18 U.S.C. § 3553(a)
sentencing factors and totality of circumstances, including Villa’s criminal history
and the nature and circumstances of the offense. See Gall, 552 U.S. at 51; see also
United States v. Mohamed, 459 F.3d 979, 987 (9th Cir. 2006) (review of denial of
a departure is subsumed in review of the substantive reasonableness of the ultimate
sentence).
Villa also contends that the supervised release condition that prohibits him
from entering or residing in Mexico infringes on a particularly significant liberty
interest because his estranged wife is seeking custody of their children, and she
lives in Mexico. Thus, he argues, the district court was required to explain more
fully why it was imposing the condition. See United States v. Wolf Child, 699 F.3d
1082, 1092 (9th Cir. 2012) (describing enhanced procedural requirements that
apply when a district court imposes a supervised release condition that infringes on
the significant liberty interest in familial association). Because the record suggests
that Villa’s children are currently living with his mother, who resides in the United

2

18-50365

Case: 18-50365, 08/11/2020, ID: 11784272, DktEntry: 50-1, Page 3 of 3

States, we decline at this time to require the district court to reconsider the
condition under Wolf Child. This decision is without prejudice, however, to Villa
moving in the district court for a modification of this condition under 18 U.S.C.
§ 3583(e)(2) upon his release if his children are living in Mexico at that time.
AFFIRMED.

3

18-50365

